Reply Appendix A-1
[Exhibit 2 to Volume I of Bill of Exceptions, Case No.
CI17-1038, A-19-00147; Application for Tax Deed]
I CERTIFY THAT THIS IS A COPY OF A RECORD
ON FILE IN THE SARPY COUNTY TREASURER’S
OFFICE IN PAPILLION NEBRASKA
12th DAY OF December, 2017
Linda L. White
SARPY COUNTY TREASURER
August 16, 2016
VIA HAND DELIVERY
Office of the Douglas County Treasurer
Attn: Rich James
1210 Golden Gate Drive, Room 1127
Papillion, NE 68046
Re: Application for Treasurer’s Tax Deeds
Dear Mr. James:
I am hereby requesting that the Treasurer issue
and deliver a tax deed for the following properties. I
understand that Sarpy County holds the original Tax
Certificate. I am enclosing an Affidavit with
attachments along with a check for $20 in payment of
each application for the following:
1. Tax Certificate 12389, Grochal, 10203
Brentwood Dr., La Vista
2. Tax Certificate 12308, Barnette, Parcel
01157219 (No Situs), Bellevue
If you need anything further, please contact me at
402-933-5393. Thank you very much.
Very truly yours,
Lilly Richardson-Severn
General Counsel
Enclosures

Exhibit #2
2-15-18 BAH

Reply Appendix A-2
AFFIDAVIT
STATE OF NEBRASKA )
)ss.
COUNTY OF SARPY
)
Lilly Richardson-Severn, being first duly sworn
upon oath deposes and states as follows:
1. I am the attorney for PONTIAN LAND
HOLDINGS LLC, A Nebraska Limited Liability
Company, and have knowledge of the facts related
herein.
2. The property is commonly described as, Parcel
ID # 01157219 (No Situs Address) and legally
described as Lot 2, Swaney’s Addition, Replat 1, an
Addition to the City of Bellevue, as surveyed, platted
and recorded, Sarpy County, Nebraska.
3. PONTIAN LAND HOLDINGS LLC is the
owner and holder of Tax Sale Certificate No. 12308,
which was issued on or about March 05, 2013. The
original Tax Sale Certificate is attached hereto as
Exhibit “A” and incorporated herein.
4. PONTIAN LAND HOLDINGS LLC ordered a
title company to conduct the title search of the above
property, which title search is attached hereto as
Exhibit “B” and incorporated herein. The title search
was completed to determine all persons and entities
with an interest in the property, the person in whose
name the title to the real property appears of record,
and every encumbrancer of record, who are entitled to
notice pursuant to Neb. Rev. Stat. § 77-1832.
5. PONTIAN LAND HOLDINGS LLC, as
purchaser of Tax Sale Certificate, served, or caused to
be served a Notice of Application for Tax Deed
pursuant to Neb. Rev. Stat. § 77-1831 to all persons
and entities with an interest in the property, the

Reply Appendix A-3
person in whose name the title to the real property
appears of record, and every encumbrancer of record,
who were entitled to notice. The notice was served
more than three (3) months prior to the Application
for treasurer’s tax deed. A copy of the Notice of
Application for Tax Deed is attached hereto as Exhibit
“C”, and incorporated herein. The owners and/or
interested parties of record failed to claim the notices
and/or after diligent inquiry, could not be found. The
original certified mail return receipts, the return of
services and envelopes are attached hereto, all
attached pursuant to Neb. Rev. Stat. § 77-1833.
6. PONTIAN LAND HOLDINGS LLC caused the
notice to be served by publication in accordance with
Neb. Rev. Stat. § 77-1834 and 77-1835 in Papillion
Times, a newspaper published in Sarpy County, and
having a general circulation in Sarpy County, which
notice was published for three consecutive weeks,
with the last publication not being less than three
months prior to the Application for the tax deed. Proof
of publication by affidavit of the publisher, manager
or other employee of Papillion Times is attached
hereto as Exhibit “D” and incorporated herein.
7. To the knowledge of the undersigned, all
conditions required by statute effective and in
existence at the time of the issuance of the Tax Sale
Certificate identified herein have been complied with
in order that the Treasurer of Sarpy County may issue
a treasurer’s deed in favor of PONTIAN LAND
HOLDINGS LLC.
FURTHER AFFIANT SAYETH NOT.
PONTIAN LAND HOLDINGS
LLC, A Nebraska Limited
Liability Company

Reply Appendix A-4
Lilly A. RichardsonSevern, Attorney, #25625
General Counsel
****
****
[Labeled Exhibit B]
CERTIFICATE OF TITLE
FILE #: 12308
EFFECTIVE: February 11, 2016
SUBJECT PROPERTY IS LEGALLY DESCRIBED
AS:
Lot 2, Swaney’s Addition Replate 1, an Addition to the
City of Bellevue, as surveyed, platted and recorded in
Sarpy County, Nebraska.
COMMONLY KNOWN AS: No Situs Address
Midwest Title having given bond required by the laws
of the State of Nebraska, and having been granted
authority in accordance with statutes of the State of
Nebraska, to engage in the business of abstracting in
said State herby certifies that from an examination of
the records of Sarpy County, Nebraska, with reference
to the above described property, find as follows:
LAST GRANTEE OF RECORD:
Walter D. Barnette, a single person
ENCUMBRANCE(S):

Reply Appendix A-5
Deed of Trust executed by Walter D. Barnette, to
Jim L. Kuhn, as Trustee and Edward S. Swaney,
as Beneficiary in the amount of $17,000.00, dated
November 29, 2002 and recorded December 6,
2002 as Instrument Number 2002-50577 of the
Sarpy County, Register of Deeds Office.
JUDGMENTS AND PENDING SUITS:
None of Record
FEDERAL AND STATE TAX IENS:
None of Record
CODE VIOLATIONS AND CITY COMPLAINTS:
None of Record
TAXES:
1. 2015
COUNTY
TAXES
(Parcel
ID
#011572191) in the amount of $517.06, unpaid,
but not delinquent
2. 2014
COUNTY
TAXES
(Parcel
ID
#011572191) in the amount of $520.44, unpaid
AND delinquent
3. 2013
COUNTY
TAXES
(Parcel
ID
#011572191) in the amount of $509.68, unpaid
AND delinquent
4. 2012
COUNTY
TAXES
(Parcel
ID
#011572191) in the amount of $494.44, unpaid
AND delinquent
5. TAX SALE CERTIFICATES:

Reply Appendix A-6
1. Tax sale certificate #12308 for the payment
of county real estate taxes for the year(s)
2010 & 2011 in the amount of $1,170.90.
6. ASSESSED VALUE - $25,000.00
SPECIAL ASSESSMENTS
Special Assessment for Weed Complaint, levied
December 9, 2013 in the amount of $150.00, plus
interest.
Special Assessment for Weed Complaint, levied
December 12, 2011 in the amount of $150.00,
plus interest.
Special Assessment for Weed Complaint, levied
April 26, 2010 in the amount of $150.00, plus
interest.
THIS REPORT IS NOT A GUARANTY OF TITLE,
OR A STATEMENT AS TO THE LEGALITY OR
SUFFICIENCY OF ANY INSTRUMENT OR
PROCEEDINGS IN THE CHAIN OF TITLE TO SAID
REAL ESTATE, AND MIDWEST TITLE ASSUMES
LIABILITY ONLY TO THE EXTEND OF THE
AMOUNT CHARGED FOR THIS REPORT OF
TITLE.

Reply Appendix A-7
[Labeled Exhibit C]
Notice of Application for Tax Deed
UNLESS YOU ACT YOU WILL LOSE THIS
PROPERTY
To: Walter D. Barnette
****
1. On March 05, 2013, the following real property
was sold by Sarpy County for delinquent taxes.
On that date, PONTIAN LAND HOLDINGS
LLC, (the “Purchaser”) bought the property at
the sale.
2. The property is described as:
a. Legal Description: Lot 2, Swaney’s
Addition Replat 1, an Addition to the
City of Bellevue, as surveyed, platted
and recorded, Sarpy County, Nebraska.
3. The taxpayer named and in whose name the tax
assessment is made is: Walter D. Barnette, a
single person.
4. The amount of the Tax Certificate No. 12308,
assessed for the year 2011 is: $1,180.90.
5. The amount of subsequent taxes paid by the
Purchaser is: $0.00.
6. Interest has accrued on the taxes assessed. The
amount of interest to March 30, 2016 is:
$503.45.

Reply Appendix A-8
Please be advised, pursuant to Neb. Rev. Stat. § 771831 (2009), that the issuance of a tax deed is subject
to the right of redemption under Neb. Rev. Stat. § 771824 to 77-1830. The right of redemption requires
payment to the county treasurer, for the use of such
purchaser, or his or her heirs or assigns, of the amount
of taxes represented by the tax sale certificate for the
year the taxes were levied or assessed and any
subsequent taxes paid and interest accrued as of the
date payment is made to the county treasurer.
UNLESS YOU REDEEM THE PROPERTY BY
PAYING ALL TAXES, COSTS, AND FEES
COVERED BY THE TAX SALE CERTIFICATE TO
THE SARPY COUNTY TREASURER WITHIN
THREE (3) MONTHS FROM THE DATE OF
SERVICE OF THIS NOTICE, GUARDIAN TAX
PARTNERS
INC.
WILL
APPLY
FOR
A
TREASURER’S TAX DEED PURSUANT TO NEB.
REV. STAT. § 77-1801 (2009) ET SEQ. ONCE THE
TAX DEED IS ISSUED, YOUR RIGHT OF
REDEMPTION WILL EXPIRE.
Dated this 30th day of March, 2016
PONTIAN LAND HOLDINGS
LLC, A Nebraska Limited
Liability Company
Lilly A. Richardson-Severn,
#25625
General Counsel
1423 Grandview Avenue
Papillion, NE 68046
****

Reply Appendix B-1
[Starting at Page 52 of court transcripts in Bill of
Exceptions, Volume II]
(At 1:09 p.m. on January 8, 2019, with counsel for
the parties present, the following proceedings were
had:)
THE COURT: This is CI17-1038. And if the
parties would make their appearances for the record?
MR. BLUMEL: Jeff Blumel on behalf of the
plaintiff, HBI, LLC.
MR. NOETHE: Ed Noethe, N-O-E-T-H-E, on
behalf of defendant, Walter D. Barnette.
THE COURT: And we’re here for a third Motion
for Summary Judgment?
MR. NOETHE: We’re here on the plaintiff’s
Amended Motion for Summary Judgment and then
the defendant Barnette has a Third Motion for
Summary Judgment, so dueling motions.
MR. BLUMEL: Yes, Your Honor, that’s correct.
****
MR. BLUMEL: Your Honor, we’ve been here a
couple of times on a lot of these same issues, and we’ve
both submitted briefs. I sent mine in yesterday by
email and I know Mr. Noethe sent his in well before,
but both briefs are in support and in opposition to the
motion so I’m not going to go over everything. just
want to point out one difference.
You previously overruled HBI’s Motion for
Summary Judgment back in -- their first Motion for
Summary Judgment, I believe, back in May of 2018.

Reply Appendix B-2
When you overruled that you found -- and I’m quoting
from your order -- that the Court finds that genuine
issues of material fact remain, specifically with
respect to the real estate and whether proper
procedures, i.e. notice, were followed to quiet title on
the same.
I think Mr. Noethe and I would both agree that
this entire case, both ways, revolves around the
sufficiency of the notice that HBI, LLC gave to Mr.
Barnette in order to get the deed to the property.
There’s certain procedures you have to go through,
we’ve walked through them in our briefs and I don’t
want to go through all those with you, you’ve seen
them. There’s certain procedures.
When we did the first motion, there was an
unpublished Court of Appeals opinion entitled Wisner
vs. VanDelay (phonetic). Again, it was an unpublished
opinion, but that opinion basically -- well, let me back
up.
The facts of the case are virtually identical to
these with respect to the notice, with respect to the
parties, I mean it’s, in our mind, it’s virtually identical
and exactly on point.
And in that original
unpublished opinion, the Court found that the notice
was not sufficient. A petition for review was filed by
the defendant VanDelay and the Supreme Court took
it and since then a decision came out in August, 2018,
August 24, 2018 by the Supreme Court and what they
did is they reversed, they reversed that opinion.
And so my position will be, and you can read it in
the brief, is that a simple reading of VanDelay vs.
Wisner, a Supreme Court case, is right on point. It is
absolutely perfectly in line with this case and
absolutely stands for the proposition that what our
clients did in this case is exactly what they did in that

Reply Appendix B-3
case and it’s proper.
I did bring, if you want, I have an extra copy of the
case if you’d like, or if you just want to look it up, it’s
up to you.
THE COURT: I’ll look it up -- well, if you have an
extra copy, sure.
MR. BLUMEL: It’s long, but the good news is a lot
of that doesn’t really apply to this case. They took
their time and they did a long one. But essentially,
Your Honor, I don’t have a whole lot more to add. I
think there’s -- the notice they gave -- you’re going to
walk through that case and walk through the facts of
this case and you’re going to see it’s identical. I think
that case held -- it was the right decision.
Mr. Barnette essentially avoided service of this
case and he shouldn’t be rewarded by avoiding service.
He also didn’t pay his taxes to start the whole matter,
but he avoided service at a residence where he was
located. So our client, HBI, was forced to publish and
that’s all they could do under the statutes and so they
did. And, again, the Court found, under these
circumstances, that was proper.
That’s really all I have new to add. There’s also an
argument that the statute is unconstitutional. We
argued that in the brief. I think that’s a tough
argument. We’ve made argument in our brief with
respect to that. But I think if you look at the facts, and
the facts are really not in dispute in this case, what
happened is not in dispute at all, it’s just the law that
applies to it. I think if you look at the VanDelay case,
that’s going to walk you down the road that would lead
you to be able to grant HBI’s motion for summary
judgment.

Reply Appendix B-4
That’s all I have, Your Honor.
THE COURT: Mr. Noethe.
MR. NOETHE: Thank you, Your Honor.
What is new, from our point of view, is we did
amend our answer and our counterclaim to include
failure to provide due process in this case. And we did
brief this in our brief. We’re basically relying upon a
United States Supreme Court decisions, Jones vs.
Flowers is one of the main cases we cite. And in that
case, again we have the type of situation where there’s
going to be a sale of an individual’s property, an
unclaimed, certified letter was sent and then later
publication was made in a local newspaper. The
Supreme Court in Jones talked about when mailed
notice is unclaimed there must be reasonable steps
taken to notify the property owner.
What steps were taken here after Mr. Barnette
did not claim the certified letter? They published
notice in a newspaper in Sarpy County, knowing full
well my guy never lived in Sarpy County, they knew
he lived in Pottawattamie County, Iowa. They could
have gone over and published in Pottawattamie
County, that might have worked, or they could have
sent the sheriff out where he’s lived at the same
address for around 30 years. They didn’t do anything
like that. They took no reasonable efforts to try to
reach him, in fact the opposite.
Publication in the county where the man doesn’t
live is really just kind of a mere gesture.
And if you read the cases we have in there, Your
Honor, there are several where they talk about when
you know a guy is gone, you can’t publish in that area.
It doesn’t make any sense. You’re not really trying.

Reply Appendix B-5
And they want you to try. United States Supreme
Court, when you read this case, actually want people
to try to serve them. That’s not what happened here.
They argue that Mr. Barnette avoided service.
Interesting, when you look at the exhibit, the certified
mail they sent had a tax -- had a return of Guardian
Tax Partners, Inc. Who the heck are they? They were
never an owner of this property, they never purchased
this property, why would my guy claim certified mail
from Guardian Tax Partners, Inc. who never bought
this at tax sale, who never owned this property. This
could have been the Nebraska Nazi party as far as we
know. And they’re saying he purposely avoided by not
picking up certified mail from an entity that he’s never
heard of.
And to claim that he somehow purposely
avoided service, no. They could have very easily, very
easily served him. He’s an elderly man, he’s lived in
the same place.
We do have other defenses, Your Honor, that have
been briefed in the past, nothing new there. We claim
the notice is defective because it talks about Guardian
Tax Partners, LLC will apply for a treasurer’s deed,
they never owned the property so that clearly was not
going to be truthful.
And then we also talk about the fact that they
started a foreclosure procedure and then switched
over to the tax deed process. And we cite the renowned
case which we cited before, which they state in other
words, after the election to proceed to judicial
foreclosure has been made, both the holder and the
property owner are bound by that election. What
they’ve done here is changed horses, they started with
foreclosure and then went to the tax deed route. That
case tells us you can’t do that. That argument has
been made in the past, too, Your Honor.

Reply Appendix B-6
Our new argument is the due process argument. I
would ask the Court to read the Jones case and those
other cases carefully. The United States Supreme
Court really does care about due process and taking
property away from individuals. They care a lot. And
if you read those cases, they’re very uniform. You
gotta try. There’s no real effort made here. This is how
do we get this property as quickly as we can.
And so, Your Honor, we think they violated his
due process. We agree that there’s really not a lot of
facts that are in dispute and nothing that really is
material here, they just violated his due process. They
didn’t try, they made a mere gesture. They may have
followed the statute, but that’s not the end of the
inquiry. If you read Wisner, that’s where the Supreme
Court stopped. They said did you follow the statute,
but that’s because the other side never raised due
process. They never raised it. They’re raising it now
on further review. Somebody woke up and said, Wow,
we should’ve thought of this, but it was not raised in
that case. It is raised in our case, Your Honor, and I
think that’s a big difference between our case and the
Wisner case.
Thank you, Your Honor.
MR. BLUMEL: Just quickly, Your Honor.
In order to give notice on these tax deeds or these
tax certificates, our clients are stuck with the
statutory scheme -- not stuck, they have to follow it.
There’s a specific statutory scheme. Mr. Noethe’s
saying that we should have published in Sarpy County
because we knew he was in -- We should have
published in Pottawattamie County because we knew
he was there, not in Sarpy County. Well, the statute
regarding publication that you have to use in this, 771834, requires you to publish in the county where the

Reply Appendix B-7
property is. Simple as that. They had no choice. They
had to publish in the county where the property is
located.
Serving by sheriff, it’s not in the statute, it’s not
allowed by the statute. It talks about served by
certified mail, if you can’t do it by certified mail then
you have the option of publishing. That’s exactly what
happened here. It’s exactly what happened here.
Again, whether it’s intentional -- whether it was
intentional for Mr. Barnette not to sign for that
certified mail or unintentional, I mean it doesn’t
matter. You gotta be responsible. Number one, you
need to pay your taxes. That’s what started this whole
thing. Let’s not forget that Mr. Barnette did not pay
his property taxes and that’s what started this whole
matter. He pays his taxes like everyone else is
required to do, we’re not here. But when he didn’t,
they followed the statute. They knew where he lived.
What more inquiry can you do than send something to
where he lives. He admitted he lived there, he’s not
answering it. Does it matter who’s on the return
envelope, I highly doubt that. I would guarantee Mr.
Barnette didn’t know that the tax certificate was
purchased by Pontian (phonetic). If he knew that he
would have done something about it I assume. He’s
just head in the sand, Your Honor. His head is in the
sand and that’s what got him to the spot where we are.
I think, again, they did everything they could.
We’ve talked about the Jones case in our brief, too,
you’ll read our argument on that so I won’t go through
that.
The last couple of arguments where it says in the
notice that Guardian Tax Partners -- it said Guardian
Tax Partners would apply for a tax deed instead of
Pontian (phonetic), that’s a mistake. But if you look at

Reply Appendix B-8
the statute, and again it’s clear in our brief, the
statute doesn’t require a notice to state who’s going to
apply for the tax deed. It has a bunch of other
requirements in it, the legal description of the
property, the name in who the property is assessed,
which our client followed. Pontian is listed in there,
but that was just a mistake. I just think it’s a
nonissue.
Lastly, the fact that they started a foreclosure, the
Nin (phonetic) does not stand for that. Our case in the
Supreme Court just doesn’t stand for that. I think if
you read it you’ll see that.
I would agree with Mr. Noethe that had they
started that foreclosure and had it still going, an
ongoing thing, when they sent the notice, I think
that’s a problem. But what happened was they started
the judicial foreclosure and dismissed it in August of
2016, which is the Order you took judicial notice of.
And then they started the tax deed process. So they
weren’t doing two simultaneously, they did one
following the other. And the Nin case, it just doesn’t
stand for that proposition that that prohibits that.
Again, had they been going simultaneously at the
same time, maybe there’s a problem there, but they
weren’t. That’s all I have.
THE COURT: Anything else?
MR. BLUMEL: Very briefly, Your Honor.
Their position is we followed the statute that
that’s enough. Our position is due process applies. If
you read the Jones case, they followed the law in
Arkansas too, very similar law, and the Supreme
Court said, no, not enough, you gotta try and they
didn’t try. You’ve got to give these people notice,
you’ve got to try hard.

Reply Appendix B-9

And publishing in Sarpy County when you know
the guy lives in Pottawattamie County is a mere
gesture and it ain’t trying, Your Honor. Thank you.
THE COURT: Thank you. You’re excused.
(END OF PROCEEDINGS)

